UNITED STATES SUPREME COURT
LOUIS TAFUTO,
Plaintiff,
vs.
Donald J. Trump, Donald J Trump for President Inc,
MICHAEL RICHARD PENCE,
KELLYANNE CONWAY,
REPUBLICAN NATIONAL COMMITTEE,
REINHOLD RICHARD PRIEBUS
AKA REINCE PRIEBUS,
Defendants
CERTIFICATE OF SERVICE
Docket Number'
I, Louis Tafuto, hereby certify under penalty of perjury that on April 5, 2021,1 served 3
copies of the Petition for Writ of Certiorari to The United States Court of Appeals for the
Second Circuit by United States Mail to the following Party:

Jared Blumetti, Esq.
LaRocca, Hornik, Rosen, Greenberg, LLP
40 Wall Street, 32nd Floor
New York, NY 10005
T: (212) 530-4831
F: (212) 530-4815
E: iblumetti@lhrgb.com

z?
April 5, 2021
Today's Date

Signatun

RECEIVED
APR 1 5 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

UNITED STATES SUPREME COURT
LOUIS TAFUTO,
Plaintiff,
vs.
Donald J. Trump, Donald J Trump for President Inc,
MICHAEL RICHARD PENCE,
KELLYANNE CONWAY,
REPUBLICAN NATIONAL COMMITTEE,
REINHOLD RICHARD PRIEBUS
AKA REINCE PRIEBUS,
Defendants
CERTIFICATE OF SERVICE
Docket Number^
I, Louis Tafiito, hereby certify under penalty of perjury that on April 5, 2021,1 served 3
copies of the Petition for Writ of Certiorari to The United States Court of Appeals for the
Second Circuit by United States Mail to the following Party:

Jared Blumetti, Esq.
LaRocca, Hornik, Rosen, Greenberg, LLP
40 Wall Street, 32nd Floor
New York, NY 10005
T: (212) 530-4831
F: (212) 530-4815
E* iblumetti@lhrgb.com

April 5, 2021
Today's Date

